Nos. 19-251 & 19-255

In the Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION, PETITIONER
v.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
RESPONDENT

THOMAS MORE LAW CENTER, PETITIONER
v.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
RESPONDENT
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF INSTITUTE FOR FREE SPEECH
AS AMICUS CURIAE SUPPORTING PETITIONERS
ALAN GURA
OWEN YEATES
INSTITUTE FOR FREE SPEECH
1150 Connecticut Ave., N.W.
Suite 801
Washington, DC 20036
(202) 301-3300

LISA S. BLATT
Counsel of Record
AMY MASON SAHARIA
KATHERINE MORAN MEEKS
FARRAH BARA
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
lblatt@wc.com
Counsel for Amicus Curiae

TABLE OF CONTENTS

Page
INTEREST OF AMICUS CURIAE ................................ 2
SUMMARY OF ARGUMENT .......................................... 3
ARGUMENT ....................................................................... 5
I.
The Ninth Circuit Erroneously Rejected the
First Amendment Facial Challenge....................... 5
A. Forced Disclosure of Private Associations Gives
Rise to a First Amendment Injury ........................ 6
B. Disclosure Also Burdens the First Amendment
Right To Solicit Charitable Donations................. 10
C. The Ninth Circuit Misunderstood This Court’s
Cases To Require Proof That Disclosure Will
Cause Secondary Injury ........................................ 12
D. Proof of Concrete Injury Is Not Required in the
Context of Facial Challenges ................................ 17
II.
The California Disclosure Requirement Should
Be Struck Down as Overbroad on Its Face ........ 20
A. Facial Challenges Are Particularly Appropriate
in the First Amendment Context ......................... 20
B. California’s Disclosure Requirement Is
Overbroad on Its Face ........................................... 22
CONCLUSION .................................................................. 29

(I)

II
TABLE OF AUTHORITIES

Cases:

Page

Ams. for Prosperity Found. v. Harris,
182 F. Supp. 3d 1049 (C.D. Cal. 2016) ............ 25, 27
Aptheker v. Sec’y of State, 378 U.S. 500 (1964) ... 11, 18
Baird v. State Bar of Ariz., 401 U.S. 1 (1971) ........... 22
Broadrick v. Oklahoma, 413 U.S. 601 (1973) ............ 20
Brown v. Socialist Workers ’74 Campaign
Comm. (Ohio), 459 U.S. 87 (1982) .................... 6, 10
Buckley v. Valeo, 424 U.S. 1 (1976) ........................ 7, 23
Carpenter v. United States,
138 S. Ct. 2206 (2018) ............................................. 26
Ctr. for Competitive Politics v. Harris,
784 F.3d 1307 (9th Cir. 2015) ....................... passim
Citizens United v. FEC, 558 U.S. 310 (2010) ...... 21, 22
City of Chicago v. Morales, 527 U.S. 41 (1999) ..... 6, 18
Doe v. Reed, 561 U.S. 186 (2010) ............... 15, 16, 17, 18
First Nat’l Bank of Bos. v. Bellotti,
435 U.S. 765 (1978) ................................................... 8
Gibson v. Fla. Legis. Investigation Comm.,
372 U.S. 539 (1963) ............................................. 7, 10
Louisiana ex rel. Gremillion v. NAACP,
366 U.S. 293 (1961) ................................................. 14
Lamont v. Postmaster Gen.,
381 U.S. 301 (1965) ................................................... 9
McCullen v. Coakley, 573 U.S. 464 (2014) ................. 28
McIntyre v. Ohio Elections Comm’n,
514 U.S. 334 (1995) ................................. 9, 23, 24, 28
N.Y. State Club Ass’n v. City of New York,
487 U.S. 1 (1988) ..................................................... 17

III

Cases—continued:

Page

NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958) ........................................ passim
NAACP v. Button, 371 U.S. 415 (1963) ............... 10, 22
Pollard v. Roberts,
283 F. Supp. 248 (E.D. Ark. 1968) ........................ 15
Riley v. Nat’l Fed’n of the Blind,
487 U.S. 781 (1988) ................................. 4, 11, 23, 28
Roberts v. Pollard, 393 U.S. 14 (1968) ....................... 15
Roberts v. U.S. Jaycees, 468 U.S. 609 (1984) ... 7, 10, 12
Sec’y of State of Md. v. Joseph H. Munson Co.,
467 U.S. 947 (1984) ........................................... 18, 27
Shelton v. Tucker, 364 U.S. 479 (1960)........... 10, 19, 22
Simmons v. United States, 390 U.S. 377 (1968) ....... 11
Stanley v. Georgia, 394 U.S. 557 (1969) ....................... 9
Steffel v. Thompson, 415 U.S. 452 (1974) ................... 14
Talley v. California, 362 U.S. 60 (1960) ........... 7, 13, 19
Thomas v. Collins, 323 U.S. 516 (1945) ..................... 11
Turner Broad. Sys. v. FCC,
512 U.S. 622 (1994) ................................................. 10
Van Hollen v. FEC,
811 F.3d 486 (D.C. Cir. 2016) .................................. 7
Vill. of Schaumburg v. Citizens for a Better
Env’t, 444 U.S. 620 (1980) ...................................... 28
Watchtower Bible & Tract Soc’y v. Vill. of
Stratton, 536 U.S. 150 (2002) .............. 11, 18, 19, 24
United States v. Salerno, 481 U.S. 739 (1987)........... 20
United States v. Stevens, 559 U.S. 460 (2010) ....... 4, 20
United States v. Williams, 553 U.S. 285 (2008) ........ 21

IV
Page

Constitution:
U.S. Const. amend. I ........................................... passim
U.S. Const. amend. IV ........................................... 21, 26
Miscellaneous:
Michael C. Dorf, Facial Challenges to State
and Federal Statutes, 46 Stan. L. Rev. 235
(1994) ....................................................................... 21
Laurence H. Tribe, American Constitutional
Law (2d ed. 1988) ................................................... 21

In the Supreme Court of the United States
No. 19-251
AMERICANS FOR PROSPERITY FOUNDATION, PETITIONER
v.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
RESPONDENT

No. 19-255
THOMAS MORE LAW CENTER, PETITIONER
v.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
RESPONDENT
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF INSTITUTE FOR FREE SPEECH
AS AMICUS CURIAE SUPPORTING PETITIONERS

(1)

2
INTEREST OF AMICUS CURIAE *

The Institute for Free Speech (“IFS”) has a pending
petition for certiorari challenging, purely on a facial basis,
the same California disclosure regime at issue here. IFS
thus has a direct and immediate interest in the resolution
of these consolidated cases and respectfully requests that
this Court resolve the cases by addressing petitioners’ facial challenges. IFS was the first of several plaintiffs to
file suit to enjoin California’s disclosure requirement, and
IFS’s case was the first to reach the U.S. Court of Appeals
for the Ninth Circuit. The court’s decision in that case,
Center for Competitive Politics v. Harris, 784 F.3d 1307
(9th Cir. 2015), in turn controlled the outcome of the facial
challenges brought by petitioners in these cases, Americans for Prosperity Foundation and Thomas More Law
Center. The holding and reasoning of IFS’s case are thus
central to the Court’s resolution of these cases.
Formerly known as the Center for Competitive Politics, IFS is a nonpartisan, nonprofit organization that
works to defend the rights to free speech, press, assembly, and petition. Like other nonprofit groups, IFS depends on contributions from the public to fund its litigation, education, and advocacy efforts. For many years,
IFS conducted fundraising activities in California. After
the California attorney general began requiring nonprofit
corporations to turn over a list of their major donors, however, IFS stopped raising money in that State rather than

*
Pursuant to Rule 37.6, amicus affirms that no counsel for a party
authored this brief in whole or in part and that no person other than
amicus or its counsel has made any monetary contributions intended
to fund the preparation or submission of this brief. All parties consent
to the filing of this brief.

3
comply with a disclosure requirement it believed to be unconstitutional.
IFS filed suit claiming that the California disclosure
regime violates the First Amendment right to free association on its face. The Ninth Circuit rejected that claim in
Center for Competitive Politics, holding that forced disclosure of an association’s donors or members does not “in
and of itself constitute[] First Amendment injury.” 784
F.3d at 1316. Absent evidence that disclosure would subject IFS’s supporters to threats, harassment, or another
“actual burden” on their First Amendment rights, the
court found no inherent constitutional problem with the
State’s disclosure requirement. Id. at 1314, 1316.
The present dispute over California’s regulation began with IFS’s facial challenge, and it should have ended
there too, without the need for petitioners to litigate a separate as-applied challenge. Had the Ninth Circuit correctly applied this Court’s precedents in IFS’s case, it
would have struck down the California disclosure regime
as facially unconstitutional. Particularly because its own
petition for certiorari remains pending, IFS has a special
interest in explaining why the Court should address the
facial challenges presented in these cases.
SUMMARY OF ARGUMENT

Private associations enjoy a presumptive right under
the First Amendment to withhold the identity of their
supporters from the government, for any reason or for no
reason at all. NAACP v. Alabama ex rel. Patterson, 357
U.S. 449, 462 (1958). California has inverted that presumption by mandating that nonprofit corporations turn
over a list of their major donors as a condition of raising

4
money in the State. This sweeping disclosure requirement, made without any compelling State need, violates
the First Amendment on its face.
I. The Ninth Circuit rejected IFS’s facial challenge
based on the erroneous premise that the compelled disclosure of an association’s donors does not constitute a First
Amendment injury at all, at least without proof that the
disclosure resulted in threats, harassment, or other concrete harms. Ctr. for Competitive Politics v. Harris, 784
F.3d 1307, 1314, 1316 (9th Cir. 2015). The Ninth Circuit’s
requirement that a plaintiff prove injury not only lacks
any foundation in this Court’s cases; it also decimates the
associational right at issue. The right to associational privacy, by its very nature, includes the right not to tell the
government why one wants to keep one’s associations private.
Far from imposing no First Amendment harm at all,
California’s disclosure requirement burdens the exercise
of First Amendment rights twice over. The State requires
nonprofit groups to divulge the names and addresses of
their principal donors as a condition of soliciting donations
within its borders—itself a form of protected speech. See
Riley v. Nat’l Fed’n of the Blind, 487 U.S. 781, 788-89
(1988). The State cannot require nonprofits to waive one
fundamental right (association) as a condition of exercising another (speech).
The Ninth Circuit’s anomalous rule that a party resisting disclosure must show proof of an injury apart from the
disclosure itself makes especially little sense in cases presenting a facial challenge. In First Amendment facial
challenges, the question before a court is whether the law
at issue is substantially overbroad in relation to the
State’s interests, such that it risks deterring protected
speech. See United States v. Stevens, 559 U.S. 460, 473

5
(2010). A specific injury to a particular party forms no
part of the analysis.
II. California’s requirement that nonprofit groups disclose a list of their major donors should be struck down on
its face. Facial challenges have a special role to play in the
First Amendment context for reasons these cases make
evident. The California attorney general has issued a
wildly broad demand for donor information from nonprofit groups regardless of whether his office has any reason to suspect them of a crime or fraud. The State then
holds this information indefinitely and places no limits on
how the attorney general may use it. Its effort to collect
and stockpile information about the expressive activity of
ordinary people will exert a chilling effect on speech and
associational rights.
The State has not identified any compelling interest
that would justify this serious intrusion on associational
privacy, nor has it shown that its broad disclosure regime
is narrowly tailored to that interest. On the contrary, the
attorney general already has a tried and true investigative tool—the subpoena power—that he may deploy to
collect donor information should a particular need arise.
The First Amendment requires that he exercise that alternative rather than needlessly burden the associational
rights of untold numbers of nonprofit organizations and
their donors.
ARGUMENT
I.

The Ninth Circuit Erroneously Rejected the First Amendment Facial Challenge

The Ninth Circuit misapplied this Court’s precedents
when it concluded that a plaintiff challenging a disclosure
requirement on First Amendment grounds must prove an
injury apart from the disclosure itself. This Court’s cases

6
could not be clearer that compelled disclosure on its own
gives rise to a First Amendment injury. “The Constitution protects against the compelled disclosure of political
associations and beliefs”—full stop. Brown v. Socialist
Workers ’74 Campaign Comm. (Ohio), 459 U.S. 87, 91
(1982).
The Ninth Circuit’s requirement that a plaintiff must
produce evidence of concrete injury misunderstands the
nature of the associational right. That right presupposes
that a private association need not explain its privacy interest to the government. Forcing an organization to give
reasons why it or its members or donors want to remain
anonymous undermines the very privacy rights that the
group or its members seek to protect.
The Ninth Circuit’s requirement that a plaintiff prove
actual injury arising from disclosure makes little sense in
the context of a facial challenge. When a party attacks a
state statute or regulation on its face, it seeks “to vindicate not only his own rights, but those of others who may
also be adversely impacted by the statute in question.”
City of Chicago v. Morales, 527 U.S. 41, 55-56 n.22 (1999).
Rather than look for evidence of how the compelled disclosure affects any particular litigant, a court must examine whether the burden on speech, as a general matter, is
justified in light of the State’s interests.
A. Forced Disclosure of Private Associations Gives Rise
to a First Amendment Injury

For more than half a century, this Court has recognized “the vital relationship” between the First Amendment right to associate and the privacy of one’s associations. See NAACP v. Alabama ex rel. Patterson, 357 U.S.
449, 462 (1958). Throughout our history, private associations have proven to be a powerful engine for speech be-

7
cause they enable their members to support a cause without attaching their own name to it. Particularly where
that cause is unpopular, the anonymity that group membership provides is often what enables the speech to take
place at all. Talley v. California, 362 U.S. 60, 64 (1960).
“Inviolability of privacy in group association may in many
circumstances be indispensable to preservation of freedom of association, particularly where a group espouses
dissident beliefs.” Patterson, 357 U.S. at 462; see also
Roberts v. U.S. Jaycees, 468 U.S. 609, 622 (1984) (recognizing the special importance of the associational right “in
preserving political and cultural diversity and in shielding
dissident expression from suppression by the majority”).
For these reasons, the Court has “repeatedly found
that compelled disclosure, in itself, can seriously infringe
on privacy of association and belief guaranteed by the
First Amendment.” Buckley v. Valeo, 424 U.S. 1, 64
(1976) (per curiam) (emphasis added). The Court has not
required litigants to come forward with evidence of specific injury, such as threats or reprisals, because it is selfevident that the forced disclosure of a group’s members
can chill expressive activity. As the Court explained in
Patterson: “It is hardly a novel perception that compelled
disclosure of affiliation with groups engaged in advocacy
may constitute a[n] effective restraint on freedom of association.” 357 U.S. at 462; see also Gibson v. Fla. Legis.
Investigation Comm., 372 U.S. 539, 555-56 (1963) (recognizing the “strong associational interest in maintaining
the privacy of membership lists of groups engaged in the
constitutionally protected free trade in ideas”); Van Hollen v. FEC, 811 F.3d 486, 488 (D.C. Cir. 2016) (“Disclosure
chills speech.”).
Compelled disclosure injures both associations and
their individual members. For the members, disclosure

8
brings the loss of their right to associate and speak anonymously, with a correlative chilling effect on their speech.
Quite apart from that injury, however, disclosure burdens
the independent right of organizations, as corporate persons, to speak free from undue intrusion by the State. See,
e.g., First Nat’l Bank of Bos. v. Bellotti, 435 U.S. 765, 777
(1978). Just as disclosure requirements may chill individuals from giving money to nonprofit organizations, so too
may they chill nonprofits from soliciting contributions
from donors with whom they do not wish to be identified
publicly. Accordingly, the organization has its own right
to keep its associations private—either for a specific reason or for no reason at all. Of course, in many cases the
injuries suffered by an organization and its members will
be closely related. If a disclosure regime discourages supporters from opening their pocketbooks, then the organization will suffer adverse effects in the form of “diminished financial support and membership.” Patterson, 357
U.S. at 459-60.
The Ninth Circuit not only failed to recognize that
forced disclosure causes an inherent First Amendment injury; it then degraded the First Amendment right even
further by requiring nonprofit groups to prove that their
supporters would suffer an “actual burden” if their names
and addresses were revealed. Ctr. for Competitive Politics v. Harris, 784 F.3d 1307, 1314 (9th Cir. 2015).
This novel requirement is incompatible with the First
Amendment because it amounts to compelled speech—it
places the burden on private associations to confess the
reasons why they or their members oppose disclosing
membership rolls to the State. But forcing an organization to explain why it prefers to keep its associations anonymous would destroy the right to associate privately.

9
Speakers are not required to state their reasons for wanting privacy as a precondition for asserting their right to
privacy. See McIntyre v. Ohio Elections Comm’n, 514
U.S. 334, 342 (1995) (“[The] decision to remain anonymous
. . . is an aspect of the freedom of speech protected by the
First Amendment.”).
Imagine, for example, that the Census Bureau ordered all citizens in their twenties to produce a list of the
people they had dated as part of a major survey on dating
and marriage patterns. Or a state university asked fraternities and sororities to turn over a list of their alumni
supporters so the university could improve its own fundraising efforts. Or the Postal Service demanded that all
families disclose their holiday card list so that it could audit the accuracy of mail delivery. Under the Ninth Circuit’s holding, none of these disclosure orders creates a
First Amendment injury at all, such that the government
could force the disclosure for any reason that meets rational basis review. Whatever the reason for an objection
to compelled disclosure and regardless of any fear of harassment, the First Amendment harm resides in having to
explain the need for privacy in the first place. The same
holds true no matter whether the government requires individuals or organizations to identify their private associations.
Private organizations have no “affirmative obligation”
to explain why they object to disclosing a list of their donors to the State. See Lamont v. Postmaster Gen., 381
U.S. 301, 307 (1965). The First Amendment preserves not
only the right to speak and assemble, but also “the right
to be let alone—the most comprehensive of rights and the
right most valued by civilized man.” Stanley v. Georgia,
394 U.S. 557, 564 (1969). Ideas best flourish in an environ-

10
ment where they are not subject to oversight by government ministers. See, e.g., Turner Broad. Sys. v. FCC, 512
U.S. 622, 641 (1994). Absent some compelling reason for
intruding into their affairs, the government must leave
private organizations “to pursue their lawful private interests privately.” Patterson, 357 U.S. at 466; see also
NAACP v. Button, 371 U.S. 415, 429 (1963) (“[T]he First
Amendment also protects vigorous advocacy, certainly of
lawful ends, against governmental intrusion.”).
This Court’s cases thus recognize a presumption—a
default setting—that private associations are entitled to
shield the identity of their supporters from the government. Although that right is not absolute, the “sanctuary”
the First Amendment provides “from unjustified interference by the State” is “substantial.” Roberts, 468 U.S. at
618. This Court has long required the government to provide a rigorous justification if it seeks to breach the privacy of an organization’s member or donor rolls. At a minimum, the government must demonstrate that it has a sufficiently important interest in identifying a group’s members, see Gibson, 372 U.S. at 555-56, and that it has no
substantially less restrictive means of effectuating that interest, see Shelton v. Tucker, 364 U.S. 479, 488 (1960).
“The right to privacy in one’s political associations and beliefs will yield only to a subordinating interest of the State
that is compelling.” Brown, 459 U.S. at 91-92 (alterations
omitted).
B. Disclosure Also Burdens the First Amendment Right
To Solicit Charitable Donations

California’s disclosure rule works a double First
Amendment injury. It both intrudes into constitutionally
protected associations and requires nonprofit groups to
disclose those associations as a condition precedent to en-

11
gaging in constitutionally protected speech—the solicitation of charitable donations. See Riley v. Nat’l Fed’n of
the Blind, 487 U.S. 781, 789 (1988) (“[T]he solicitation of
charitable contributions is protected speech.”).
It is a pillar of our constitutional tradition that government may not impose preconditions—particularly unconstitutional ones—on the exercise of speech and assembly
rights. Repeatedly over the past century, this Court has
invalidated such conditions, even where they consisted of
mere administrative hurdles, such as a requirement that
a speaker obtain a license. See Watchtower Bible & Tract
Soc’y v. Vill. of Stratton, 536 U.S. 150, 168 (2002) (striking
down a license requirement for door-to-door canvassing);
Thomas v. Collins, 323 U.S. 516, 540 (1945) (“[A] requirement that one must register before he undertakes to make
a public speech to enlist support for a lawful movement is
quite incompatible with the requirements of the First
Amendment.”). The restraint is altogether worse in this
case because California is asking for far more than paperwork. The State commands that nonprofits give up their
fundamental right to privacy as a condition of engaging in
protected speech. The government cannot require citizens to barter one First Amendment right for another
First Amendment right. See Simmons v. United States,
390 U.S. 377, 394 (1968) (“[W]e find it intolerable that one
constitutional right should have to be surrendered in order to assert another.”); Aptheker v. Sec’y of State, 378
U.S. 500, 507 (1964) (rejecting government’s argument
that plaintiffs could be required to forsake membership in
the Communist Party as a condition of exercising constitutional right to international travel).
If California can demand that private associations disclose a list of their donors as a condition of raising money

12
in the State, its appetite for information will become virtually limitless. The State could require patrons to list the
authors they plan to read before it will issue them a library card. It could require organizers of a peaceful protest to disclose the names, addresses, and cell phone numbers of expected participants. It could demand that newspapers turn over a list of their state government sources
before it will issue press credentials for official events. It
should be obvious that these impositions on the exercise
of fundamental speech and press rights are unconstitutional. So too here.
C. The Ninth Circuit Misunderstood This Court’s Cases
To Require Proof That Disclosure Will Cause Secondary Injury

The Ninth Circuit believed that this Court’s precedents dictated its errant rule requiring evidence of a concrete injury. Far from it. No case from this Court demands that a plaintiff plead and prove it will suffer threats
or other reprisals before it can bring a First Amendment
challenge to a state disclosure requirement.
1. The Ninth Circuit derived its proof requirement
from an unduly narrow reading of Patterson. In Patterson, this Court overturned a contempt sanction entered
against the NAACP for refusing to disclose its membership list to the Alabama attorney general—whose demand
for this information was transparently designed to menace and intimidate the group’s supporters. 357 U.S. at
466. Although the case involved a particularly flagrant
abuse of state power, the principles it announced were
general ones. Long after the Jim Crow era came to an
end, the Court has continued to cite Patterson for the bedrock rule that private associations are “vigorously protected from interference by the State.” Roberts, 468 U.S.
at 622; see also id. at 632-33 (O’Connor, J., concurring)

13
(observing that Patterson “settled” the First Amendment
right to privacy in associations).
According to the Ninth Circuit, however, Patterson
was little more than an artifact of its time. Patterson, it
said, dated to an era “when many NAACP members experienced violence or serious threats of violence,” and the
organization was able to present firm proof that “disclosure would harm its members.” Ctr. for Competitive Politics, 784 F.3d at 1312 & n.3. Absent evidence that the
California disclosure requirement opened a nonprofit
group to a similar risk of harassment or intimidation, it
declared Patterson “inapposite” to the present dispute.
Id. at 1312 n.3.
The Ninth Circuit had no basis to confine this landmark precedent to its facts. Patterson itself did not suggest that membership lists are protected only to the extent a plaintiff can demonstrate severe and concrete harm
arising from their disclosure to the State. Although the
record in that case contained “uncontroverted” evidence
of the threats and violence directed at members of the
NAACP, this Court did not hold that such evidence is required in all cases. See Patterson, 357 U.S. at 462. To the
contrary, Patterson recognized that the First Amendment is implicated when there is a mere possibility that
state action will chill the exercise of speech and associational rights: “[S]tate action which may have the effect of
curtailing the freedom to associate is subject to the closest
scrutiny.” Id. at 460-61 (emphasis added). Under this
standard, the government is required to justify even the
“possible deterrent effect” that its disclosure requirement
may exert on the right to free association. Id. at 461 (emphasis added); see also Talley, 362 U.S. at 65 (recognizing
that First Amendment scrutiny is triggered where “iden-

14
tification and fear of reprisal might deter perfectly peaceful discussions of public matters of importance” (emphasis
added)). That language cannot be squared with the Ninth
Circuit’s requirement that an organization produce evidence of concrete injuries before it may assert its right to
privacy.
The record in Patterson contained evidence of harassment and reprisals because of the posture in which it
arose—on review of an order of civil contempt. 357 U.S.
at 452-54. In subsequent cases, however, this Court made
clear that a party whose fundamental rights are threatened need not wait until a penalty is imposed to invoke
those rights. It may instead assert those rights preemptively in a declaratory judgment action. See, e.g., Steffel v.
Thompson, 415 U.S. 452, 459 (1974) (“[I]t is not necessary
that petitioner first expose himself to actual arrest or
prosecution to be entitled to challenge a statute that he
claims deters the exercise of his constitutional rights.”).
In cases where a speaker files suit before a State has even
enforced its laws, it may be impossible to introduce evidence of concrete harm that may result from compelled
disclosure. It should thus come as no surprise that this
Court has not required such proof before it enjoins state
laws that deter the exercise of speech and associational
rights.
In Louisiana ex rel. Gremillion v. NAACP, 366 U.S.
293 (1961), for example, this Court affirmed the entry of a
preliminary injunction against a state disclosure law even
though the district court had not made factual findings
that the law would chill protected speech or associations.
As in Patterson, the law at issue in Gremillion required
the NAACP to tender a list of its members to state authorities. Although the case was at “a preliminary stage,”
and the State disputed that “disclosure of membership in

15
the NAACP results in reprisals,” this Court upheld the
injunction without waiting to see “what facts further hearings . . . may disclose.” Id. at 296; see also Pollard v. Roberts, 283 F. Supp. 248, 258 (E.D. Ark.), aff’d, 393 U.S. 14
(1968) (quashing subpoena for list of political contributors, even though “there is no evidence of record . . . that
any individuals have as yet been subjected to reprisals on
account of the contributions in question”). In that case, as
in others, the risk that speech and associational rights
would be chilled provided a sufficient basis to invalidate
the disclosure requirement.
2. In support of its ruling that a plaintiff must prove
concrete harm arising from disclosure, the Ninth Circuit
also relied on Doe v. Reed, 561 U.S. 186 (2010), in which
this Court rejected a facial challenge to a state law that
allowed for public disclosure of the signatories of referendum petitions. See Ctr. for Competitive Politics, 784 F.3d
at 1314 (citing Doe, 561 U.S. at 196). But Doe does not
support the position that compelled disclosure of an association’s membership list to the State raises no First
Amendment concerns in its own right. On the contrary,
the Court made plain that “compelled disclosure of signatory information on referendum petitions is subject to review under the First Amendment.” Doe, 561 U.S. at 194
(emphasis added).
The Ninth Circuit focused on Doe’s discussion of “exacting scrutiny,” the standard of review that applies when
a disclosure law is challenged under the First Amendment. Doe instructed that, for a state disclosure requirement to survive exacting scrutiny, “the strength of the
governmental interest must reflect the seriousness of the
actual burden on First Amendment rights.” 561 U.S. at
196. Rather than take this passage as a whole, the Ninth
Circuit focused myopically on the words “actual burden.”

16
See Ctr. for Competitive Politics, 784 F.3d at 1314. It understood the Court to mandate that a party resisting disclosure must show an “actual” injury separate and apart
from the disclosure itself. Id. at 1314-16.
That reading of Doe is an unnatural one. Doe simply
recognized that the “actual burden” imposed by a disclosure requirement varies from case to case—and that the
State’s burden to justify the disclosure varies as well. The
“actual burden” on speech rights may vary for a host of
reasons. Some state disclosure requirements are broad,
whereas others are targeted and narrow. Some private
associations closely guard the identity of their members,
whereas other groups may display members’ names or
photos on a website. Whatever the circumstance, the
State must always satisfy the Court that its interest in disclosure outweighs the burden on privacy rights. Accordingly, where the burden on those rights is substantial, the
State must show its interests are substantial too. See Doe,
561 U.S. at 196 (holding that the State’s interest “must reflect the seriousness of the actual burden on First Amendment rights”). Doe simply held the State to its burden of
proof. It did not suggest that compelled disclosure raises
no constitutional concerns at all absent evidence that the
disclosure will lead to threats or other secondary harms.
Doe, in any event, is distinguishable from this case on
its facts. The plaintiffs in Doe were attempting to block
the public release of a referendum petition they had voluntarily “submitted to the government” in order to place
an issue on the ballot. Id. at 190-91. Here, petitioners,
IFS, and other nonprofit groups are resisting disclosure
of their donors to the State in the first instance. Whatever
interest the Doe plaintiffs had in preventing the further

17
disclosure of their signatures to the public, it did not implicate their fundamental right to shield their private donor information from the State.
Doe, moreover, arose in the “electoral context.” 561
U.S. at 195-96. The State had argued that signatories to
referendum petitions have no First Amendment right to
privacy at all because their signature was a “legislative
act” that had the effect of putting a law up for a popular
vote. Id. at 195. Although the Court rejected that position, it emphasized that States enjoy “significant flexibility in implementing their own voting systems” and ensuring the integrity of the vote—an independent constitutional right. Id. at 195, 197; see also id. at 212-15 (Sotomayor, J., concurring). No similar interest obtains in
this case.
D. Proof of Concrete Injury Is Not Required in the Context of Facial Challenges

The Ninth Circuit’s requirement that a litigant resisting disclosure introduce evidence of an “actual” injury to
its First Amendment rights, Ctr. for Competitive Politics,
784 F.3d at 1314, makes especially little sense in the context of facial challenges.
A facial challenge is available under the First Amendment where the State burdens far more speech than necessary to accomplish its objectives. N.Y. State Club Ass’n
v. City of New York, 487 U.S. 1, 11 (1988). Even if the law
may be validly applied in some cases, it is still subject to a
facial challenge if it “is so broad that it may inhibit the
constitutionally protected speech of third parties.” Id.
The crux of an “overbreadth” claim is that the fit between
the State’s means and its ends is especially poor. For
claims of this nature, there is no need for a court to consider evidence that the law caused specific injuries to any
particular party. A facial challenge exists “not primarily

18
for the benefit of the litigant, but . . . to prevent the statute
from chilling the First Amendment rights of other parties
not before the court.” Sec’y of State of Md. v. Joseph H.
Munson Co., 467 U.S. 947, 958 (1984) (emphasis added);
see also City of Chicago v. Morales, 527 U.S. 41, 55-56 n.22
(1999) (“When asserting a facial challenge, a party seeks
to vindicate not only his own rights, but those of others
who may also be adversely impacted by the statute in
question.”); Aptheker, 378 U.S. at 516 (recognizing that, in
evaluating a facial challenge, “this Court has not hesitated
to take into account possible applications of the statute in
other factual contexts besides that at bar”).
In Doe v. Reed, this Court rejected a facial challenge
precisely because the argument the plaintiffs made for
striking down a disclosure law “rest[ed] almost entirely on
the specific harm they say would attend disclosure of the
information” in one particular referendum petition or
other similarly controversial ones. 561 U.S. at 200. If
plaintiffs claim that a disclosure requirement burdens the
exercise of their own speech or associational rights—say,
by exposing them to threats or harassment for their unpopular views—they may bring an as-applied challenge.
Id.; see also id. at 202-03 (Alito, J., concurring). But a facial challenge by its nature tests whether the compelled
disclosure “in general violates the First Amendment.” Id.
at 200 (emphasis added).
In other cases presenting a facial challenge, this Court
has neither considered nor discussed the type of evidence
that the Ninth Circuit required in this case. Watchtower
Bible & Tract Soc’y, 536 U.S. 150, concerned an ordinance
that barred canvassers from entering private property for
the purpose of promoting a cause without first obtaining
a permit. Because the canvassers were required to identify themselves on the license, the Court treated the case

19
as implicating the right to anonymous speech. Id. at 160.
But the Court did not ask whether any member of the religious society that brought the suit had suffered threats
or harassment once their names were disclosed. Instead,
it struck down the ordinance on its face because it was
substantially overbroad—it regulated “so much speech”
and was “not tailored to the Village’s stated interests” in
protecting the privacy of its residents. Id. at 165, 168 (emphasis added); see also Talley, 362 U.S. at 64-65 (holding
a local ordinance “void on its face” because it barred distribution of anonymous handbills “under all circumstances”).
Shelton v. Tucker, 364 U.S. 479, struck a similar
theme. At issue in that case was an Arkansas law that required all public school teachers, as a condition of employment, to submit an affidavit listing every group to which
they contributed or belonged in the previous five years.
Although the plaintiff was a member of the NAACP, the
Court did not invalidate the law on the ground that the
disclosure would subject the plaintiff to retaliation. Instead, it held the law facially overbroad because the scope
of the State’s intrusive and deeply personal inquiry was
out of proportion to its interest in evaluating the competence of its teachers. “The statute’s comprehensive interference with associational freedom goes far beyond what
might be justified in the exercise of the State’s legitimate
inquiry into the fitness and competency of its teachers.”
Id. at 490.
This case is similar to Watchtower and Shelton. As
further explained in Section II, infra, the California regulation violates the First Amendment on its face because
its sweeping demand for donor information bears no substantial relationship to its interest in preventing fraud.
The Ninth Circuit rejected IFS’s facial challenge to the

20
law because IFS did “not claim and produce[d] no evidence to suggest that [its] significant donors would experience threats, harassment, or other potentially chilling
conduct as a result of the . . . disclosure requirement.” Ctr.
for Competitive Politics, 784 F.3d at 1316. For the reasons above, proof of such harm should have played no part
in the analysis.
II. The California Disclosure Requirement Should Be Struck
Down as Overbroad on Its Face
A. Facial Challenges Are Particularly Appropriate in the
First Amendment Context

This Court has long recognized a heightened role for
facial challenges in the First Amendment context. See
United States v. Salerno, 481 U.S. 739, 745 (1987) (distinguishing First Amendment facial challenges from other
facial challenges); see also United States v. Stevens, 559
U.S. 460, 472 (2010). Unlike facial challenges in other contexts, which require the plaintiff to show either that a statute is unconstitutional in every application or “lacks any
plainly legitimate sweep,” First Amendment facial challenges require merely that the plaintiff prove substantial
overbreadth. Stevens, 559 U.S. at 472-73; Broadrick v.
Oklahoma, 413 U.S. 601, 615 (1973); pp. 17-18, supra. Under that standard, “a law may be invalidated as overbroad
if a substantial number of its applications are unconstitutional, judged in relation to the statute’s plainly legitimate
sweep.” Stevens, 559 U.S. at 473.
This distinction effectuates the principles underlying
the First Amendment. Most other constitutional protections preserve only an individual’s right to be free from
certain intrusions, like excessive force, but the First
Amendment preserves an individual’s right to act affirmatively—to speak, publish, assemble, petition, or practice
one’s religion. Facial challenges are therefore especially

21
appropriate in the First Amendment context because
overly broad laws “deter[] people from engaging in constitutionally protected speech”—i.e., from engaging in affirmative acts that the Constitution specifically protects.
United States v. Williams, 553 U.S. 285, 292 (2008).
Not only are facial challenges suitable in First Amendment cases, but case-by-case adjudication can be particularly inappropriate. Compare the First Amendment to
the Fourth. The crux of a Fourth Amendment violation is
reasonableness. Because the reasonableness of a search
depends on context, Fourth Amendment claims are typically decided case by case. But with a First Amendment
claim that a statute is substantially overbroad, the circumstances of any one particular case rarely matter. “Gradually cutting away the unconstitutional aspects of a statute
by invalidating its improper applications case by case does
not respond sufficiently to the peculiarly vulnerable character of activities protected by the First Amendment.”
Michael C. Dorf, Facial Challenges to State and Federal
Statutes, 46 Stan. L. Rev. 235, 262 n.97 (1994) (alterations
omitted) (quoting Laurence H. Tribe, American Constitutional Law § 1227, at 1023 (2d ed. 1988)).
Citizens should not have to bear the cost of repeat litigation over the same constitutionally defective state regulation. Where state disclosure laws are concerned, asapplied challenges burden the exercise of First Amendment rights by requiring private associations to spend
precious resources hiring counsel and marshalling evidence that they or their donors will face threats or other
harms resulting from disclosure. “The First Amendment
does not permit laws that force speakers to retain a[n] attorney . . . before discussing the most salient political issues of our day.” Citizens United v. FEC, 558 U.S. 310,

22
324 (2010). Litigation costs are substantial, and many organizations cannot afford them. Americans for Prosperity Foundation’s as-applied claim required the testimony
of five different fact witnesses and two experts. Ams. for
Prosperity Found. v. Harris, No. 2:14-cv-09448-R (C.D.
Cal.), Dkt. Nos. 164, 165, 166, 170, 171. Such litigation by
its nature forces organizations to engage in compelled
speech by asking them to justify their interests in associational privacy. Where the disclosure requirement is substantially overbroad in light of the State’s interests, it
should be stricken on its face.
B. California’s Disclosure Requirement Is Overbroad on
Its Face

California’s disclosure requirement is facially unconstitutional because it imposes an “unlimited and indiscriminate” burden on the right to associate far out of proportion to the State’s legitimate need. See Shelton, 364
U.S. at 490. “Because First Amendment freedoms need
breathing space to survive, government may regulate in
the area only with narrow specificity.” Button, 371 U.S.
at 433. “Broad and sweeping state inquiries into” a person
or group’s associations “discourage citizens from exercising rights protected by the Constitution.” Baird v. State
Bar of Ariz., 401 U.S. 1, 6 (1971). Under the exacting scrutiny standard, even important government interests “cannot be pursued by means that broadly stifle fundamental
personal liberties when the end can be more narrowly
achieved.” Shelton, 364 U.S. at 488. Far from satisfying
that standard, California’s disclosure mandate to nonprofits is virtually limitless.
California has issued a blanket demand that nonprofit
or charitable groups seeking to raise money in the State
must divulge a list of their major donors to the attorney

23
general. Although the ostensible purpose of the regulation is to assist the attorney general in detecting fraud, it
applies whether or not the State has any reason to suspect
that a particular group is engaged in fraudulent or criminal activity. It does not permit organizations to redact or
withhold the names of donors who reside outside of California—and outside the reach of the State’s law enforcement powers. What is more, the regulation contains no
temporal limits. California retains the donor records indefinitely, and the attorney general may inspect them at
any time and for any purpose whatsoever.
The risk that this information dragnet will chill protected speech and associations is as obvious as it is substantial. Soliciting and making charitable donations are
both forms of speech subject to the highest First Amendment protection, see Riley, 487 U.S. at 789, and both activities convey a significant amount of information about
the beliefs and priorities of the speaker, see Buckley, 424
U.S. at 66. A record of a person’s nonprofit giving may
reflect, among other things, what religion she practices,
what schools she attended, and what her views are on the
divisive issues of the day, from abortion rights and gun
rights to racial justice and law enforcement reform.
Donors have many reasons they would not want to divulge this sort of deeply personal information to the State,
whether out of embarrassment, fear of surveillance or official reprisals, or “merely . . . a desire to preserve as
much of one’s privacy as possible.” McIntyre, 514 U.S. at
341-42. If donors can no longer support their causes from
a position of relative anonymity, some of them will cease
giving money rather than expose their affiliations to the
State. IFS is in just such a position: It has stopped soliciting donations in California, the Nation’s most populous

24
State, rather than submit to its intrusive disclosure regime.
California’s demand that nonprofit groups turn over a
list of their major donors will surely have the most swift
and dramatic effect on organizations that advance controversial or unpopular positions. Given California’s history
of leaking this information, see p. 25, infra, supporters of
these groups will understandably fear that disclosure will
subject them to social ostracism or online vitriol. See
McIntyre, 514 U.S. at 341-42. But even groups that do not
ordinarily court controversy may lose supporters who
have subjective and idiosyncratic privacy concerns or
simply object to disclosing information to the State. One
can expect that the disclosure requirement will deter contributions from, among many others:
•

Donors whose “religious scruples” bar them from
taking credit for charitable donations. See Watchtower, 536 U.S. at 167.

•

Civil libertarians who object on principle to government intrusions into private lives. See id.

•

Supporters of nonprofits working for human rights
in repressive countries.

•

Patients who worry that a donation to a hospital,
foundation, or research institution may reveal a
medical condition they prefer to keep private—depression, mental illness, addiction, infertility, or a
sexually transmitted infection.

•

Sexual assault survivors who wish to donate to a
victims’ organization but who do not want to disclose their own experience as survivors.

•

Prosecutors, journalists, teachers, or others whose
jobs require impartiality in a professional setting,

25
but who wish to advance their views in their personal capacity.
•

Career civil service employees whose private views
clash with those of the incumbent administration
or prominent state legislators.

•

Members of minority racial, religious, or ethnic
groups who fear they may be profiled by the State
once their affiliation with a charitable or nonprofit
group is disclosed.

•

Supporters of ideological causes disfavored by employers or consumers who fear job or business
losses over their donations.

•

Anyone who believes their donations will subject
them to recrimination from family, friends, or coworkers or make them the target of harsh online
criticism.

It is no answer to say that the chilling effect of California’s disclosure requirement will be limited because the
attorney general does not intend to release the donor lists
to the public. No matter the attorney general’s present
intent, he or his successor could decide to reveal this confidential information at a later date. What is more, the
district court made factual findings in Americans for
Prosperity Foundation v. Harris, 182 F. Supp. 3d 1049
(C.D. Cal. 2016), that leaks were commonplace and the
State’s security protocols for maintaining the confidentiality of donor lists were “indefensible.” Id. at 1057. The
petitioner in that case identified nearly 1,800 donor lists
that California had inadvertently released online, including a copy of Planned Parenthood’s Schedule B that “included all the names and addresses of hundreds of donors.” Id.

26
But the California regulation would not be saved even
if the State could guarantee that the donor lists would
never become public. Donors have at least as much to fear
from disclosure of their names to the State as they do
from disclosure to the public at large. It is the State that
has the power to arrest, audit, interrogate, and incarcerate. The California disclosure requirement supercharges
the State’s investigative and law enforcement powers by
providing access on demand to documents—the Schedule
Bs—for which it would ordinarily need a warrant or subpoena. Once the State has collected that information,
there are no limits on the purposes for which it can be
used. It can be compiled into a searchable database,
shared with other law enforcement agencies, and combined with other sources of information to build a comprehensive portrait of the activities and associations of ordinary people. Lest our country become a surveillance
state, this Court has already recognized the need for constitutional limits on searches that provide “an intimate
window into a person’s life, revealing . . . his familial, political, professional, religious, and [other] associations.”
Carpenter v. United States, 138 S. Ct. 2206, 2217 (2018)
(Fourth Amendment).
The vague law enforcement interests asserted by the
attorney general do not remotely justify California’s
sweeping intrusion into private associations. In its briefing to the Ninth Circuit in IFS’s case, California scarcely
bothered to describe its supposed interest in the donor
lists, arguing that “in the absence of any showing of harm,
the law does not require the Attorney General to explain
the necessity of the required disclosure.” Harris Br. 29,
Ctr. for Competitive Politics v. Harris, No. 14-15978 (9th
Cir.), Dkt. No. 17. It was not until oral argument that the
State attempted to justify its disclosure rule, suggesting
that the donor lists might help it identify instances where

27
charities inflated the value of in-kind donations. It never
explained, however, why it could not simply require the
names of donors who made in-kind rather than cash contributions. This kind of speculative interest falls far short
of carrying the State’s burden of justifying its imposition
on speech and associational rights.
Even assuming that the State had legitimate law enforcement interests, its disclosure requirement violates
the First Amendment because it sweeps far more broadly
than necessary to effectuate those interests. There is no
conceivable need for the State to conduct a fishing expedition into the files of every nonprofit group to exercise
effective oversight of the small number of them that might
engage in financial fraud. Indeed, an investigator for the
attorney general’s office testified in the Americans for
Prosperity case that the office used the Schedule B donor
lists in only five of the 540 investigations conducted in the
previous ten years—and even then the Schedule B information would have been available through other means.
See Ams. for Prosperity Found., 182 F. Supp. 3d at 1054.
At best, the California regulation is potentially helpful
once every two years. “That the statute in some of its applications actually prevents the misdirection of funds from
the organization’s purported charitable goal is little more
than fortuitous.” Joseph H. Munson, 467 U.S. at 966-67.
“It is equally likely that the statute will restrict First
Amendment activity.” Id.
What is more, the State has an alternative means of
carrying out its investigative mandate that burdens far
less speech. As the Ninth Circuit recognized, “the Attorney General has the power to require disclosure of significant donor information as a part of her general subpoena
power.” Ctr. for Competitive Politics, 784 F.3d at 1317.
And that traditional investigative tool accords greater

28
protection to speech rights because the target of the subpoena can ask a court to narrow its scope or quash it altogether. California’s standing disclosure order provides no
such built-in mechanism for judicial review.
Where a less speech-restrictive means of gathering
the information exists, the First Amendment requires
that the State exercise that option rather than burdening
speech and associational rights. See, e.g., McIntyre, 514
U.S. at 349-51 (invalidating Ohio’s requirement that the
names and addresses of individuals distributing campaign
literature be disclosed because the State had more tailored means to prevent fraud); Riley, 487 U.S. at 795 (observing that state antifraud law provided less restrictive
alternative to burdening speech rights); Vill. of Schaumburg v. Citizens for a Better Env’t, 444 U.S. 620, 637-38
(1980) (“The Village’s legitimate interest in preventing
fraud can be better served by measures less intrusive
than a direct prohibition on solicitation.”). It makes no
difference that the attorney general would gain certain
administrative efficiencies from collecting Schedule B
lists up front instead of issuing subpoenas when a particular need arises. This Court has “emphatically” stated
that “the First Amendment does not permit the State to
sacrifice speech for efficiency.” Riley, 487 U.S. at 795; accord McCullen v. Coakley, 573 U.S. 464, 486 (2014).
California here attempts to force nonprofit groups to
turn over a list of their major donors as a condition of soliciting money within the State. It seeks the disclosure of
information that is presumptively protected by the First
Amendment as a prerequisite to engaging in other constitutionally protected activity. And it does so on only the
thinnest showing of need. The First Amendment prohibits the State from broadly interfering with speech and as-

29
sociational rights when it may pursue its goals in less restrictive ways. The California disclosure requirement violates the Constitution on its face.
CONCLUSION

The Court should reverse the decisions below and
should reverse the decision in Institute for Free Speech v.
Becerra, No. 17-17403 (9th Cir. Oct. 11, 2019), petition for
cert. pending, No. 19-793 (filed Dec. 18, 2019).
Respectfully submitted,
ALAN GURA
OWEN YEATES
INSTITUTE FOR FREE SPEECH
1150 Connecticut Ave., N.W.
Suite 801
Washington, DC 20036
(202) 301-3300

LISA S. BLATT
Counsel of Record
AMY MASON SAHARIA
KATHERINE MORAN MEEKS
FARRAH BARA
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
lblatt@wc.com
Counsel for Amicus Curiae
Institute for Free Speech

MARCH 1, 2021

